<html>
<title> - THE LATEST SCIENCE ON LEAD'S IMPACTS ON CHILDREN'S DEVELOPMENT AND PUBLIC HEALTH</title>
<body><pre>[Senate Hearing 112-973]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-973

  THE LATEST SCIENCE ON LEAD'S IMPACTS ON CHILDREN'S DEVELOPMENT AND 
                             PUBLIC HEALTH

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










         Available via the World Wide Web: http://www.fdsys.gov
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-057PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 12, 2012
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    34

                               WITNESSES

Portier, Christopher J., Ph.D., Director, National Center for 
  Environmental Health and Agency for Toxic Substances and 
  Disease Registry, Centers for Disease Control and Prevention...     5
    Prepared statement...........................................     7
Vandenberg, John, Director, National Center for Environmental 
  Assessment, Office of Research and Development, U.S. 
  Environmental Protection Agency................................    16
    Prepared statement...........................................    18

 
  THE LATEST SCIENCE ON LEAD'S IMPACTS ON CHILDREN'S DEVELOPMENT AND 
                             PUBLIC HEALTH

                              ----------                              


                        THURSDAY, JULY 12, 2012

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee) presiding.
    Present: Senators Boxer, Lautenberg, Cardin, Whitehouse, 
and Udall.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Welcome. Today's hearing on the threat posed 
by lead provides a clear example of just how important the EPA 
is to protecting public health and keeping our children and our 
families safe from dangerous pollutants. The hearing will show 
why those who question the need for EPA are ignoring the facts. 
EPA's mission is to reduce pollution in the air we breathe and 
the water we drink.
    One of the most dangerous pollutants that EPA works to 
protect us from is lead. Lead is a toxic heavy metal that 
threatens people's health and affects almost every organ in the 
human body. Children are particularly vulnerable to lead 
exposure, because they are still growing and developing. Today 
we are going to review the latest scientific understanding 
about the threat posed by lead in the environment, especially 
to children.
    Although great progress has been made in addressing lead in 
the environment and the serious threat it poses, guidelines 
released by the Centers for Disease Control and Prevention this 
year have cut in half the level of lead in children's blood 
that triggers action. That means that the number of children 
requiring attention in accordance with these guidelines is 
substantially greater.
    The science now makes it clear that no level of lead, no 
level of lead in children's blood is safe, and even the 
smallest amount of lead exposure can be harmful to kids. Lead 
can damage the nervous system, including the brain, which can 
lower IQ scores and impede development of reading, writing, 
language, and social interaction skills. It can also harm the 
cardiovascular system, including the heart and organs that 
produce blood.
    As we have learned more over time about the damage that 
this toxic contaminant can cause, the threshold of lead in 
children's blood that requires preventive measures, known as 
action level, has gradually been lowered. As I said, now the 
CDC says it should be 5, although the safe level--really there 
is no safe level, which is something I am going to talk to you 
about, because I am confused as to why they say it is 5, when 
the science says there is no safe level.
    In the 1960s the best available science indicated that 
elevated lead levels in children's blood occurred at 16 
micrograms per deciliter. The level was lowered to 40 in 1971, 
to 30 in 1978, to 25 in 1985 and to 10 in 1991. Over the 
decades, we have made progress in reducing levels of lead in 
children's blood. From 1976 to 1994 there was a steep decline 
in lead levels 10 or higher in children's blood, from 77 
percent to 5 percent.
    CDC is responsible for setting the blood lead level that 
triggers action to prevent further lead exposure in children. 
Unfortunately, just as the Federal Government is acknowledging 
that more children are at risk, the 2013 budget proposal 
effectively cuts funding for CDC programs that address indoor 
lead hazards. Despite what is known about the health risks and 
efforts to reduce lead exposure, industries are still releasing 
millions of pounds of this dangerous metal each year. According 
to the EPA, industry released 17.5 million pounds of lead into 
the environment in 2010. These ongoing releases continue to 
cause pollution.
    Our knowledge about the dangers of lead exposure and other 
contaminants increases every day. I ask unanimous consent to 
submit for the record studies which show an array of damaging 
health effects at very low levels of lead exposure. We will put 
that into the record.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. While we know we can't eliminate every risk, 
when science tells us that a substance, even at very low 
levels, can damage children's intellectual development and 
physical health, we have a clear responsibility to protect 
them. So today, the best available science tells that by 
limiting the use of lead, we can reduce levels of toxic 
pollution that harm public health and hurt our children. The 
serious threat posed by lead, even at low levels, makes it 
clear how essential it is for the health and safety of the 
American people that EPA take every opportunity to decrease 
exposure to this dangerous pollutant.
    In our debates that we have in the Senate every day--and I 
see it over at the House--there is a huge move to say that EPA 
is a bureaucracy that is terrorizing the American people. The 
fact is, EPA is carrying out its role to protect the earth, to 
protect our water, to protect our children, to protect our 
families. And we will continue to make sure that we stand 
behind that effort. Because to walk away from it means that we 
are hurting our families, and we don't intend to do that.
    It is my pleasure to call on someone who is taking the lead 
on getting toxins out of the environment, someone who is really 
just an amazing role model for every one of us, because the 
more he gets a couple more gray hairs--and he has a lot of 
hair--the more passionate he becomes about these issues. So it 
is my pleasure to call on Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman.
    What exists here as a result of the exposure to lead is 
almost a national tragedy in terms of the result that we see 
with 500,000 children having dangerous levels of lead in their 
body. And it is incredible that we were unable to continue the 
funding that the Superfund, in its better days, brought, and 
then it took a newspaper story as well as CDC doing its 
regular, its normal work.
    But here we are. Children exposed to lead, as we all know 
here, they can experience delays in their development, lower 
IQs, damage to their hearing and other harmful effects. The 
reality is that there is no safe level of lead for the body. As 
long as we fail to act, we are willingly sacrificing our 
children and our country's, many of our children's and our 
country's future. The reality is that there is no safe level of 
lead for the body. As long as we fail to act, we willingly 
participate in the program that exists in these households 
where these children are.
    Recently, USA Today released a sobering report on lead 
contamination that puts this crisis in perspective. It showed 
that in one of the towns in my State, the town of Carteret, New 
Jersey, a lead smelting plant spewed toxic materials throughout 
the neighborhood, blanketed cars and homes, and contaminated 
the air and the ground. After the plant closed, in 1986, only 
its land was cleaned up. No attention was paid to the 
neighboring families whose homes were still contaminated and 
whose health remained at serious risk.
    And a quarter-century later, soil samples in the 
neighboring community still contained dangerous levels of lead 
contamination. And it means that over multiple Administrations, 
under both parties, we failed to protect these families whose 
lives and futures have hung in the balance. And while many are 
to blame, the buck has to stop. This continual neglect is a 
moral outrage.
    To make matters worse, Carteret is just one of 14 New 
Jersey communities and 230 across this country with old plants 
and lead contamination. Like Carteret, these neighborhoods 
throughout America fell victim to pollution, yet many were 
never cleaned up or even tested for unsafe levels of lead. 
Imagine generations of children growing up, playing in the 
shadows of these lead smelting plants and nobody taking the 
time to test for contamination until now.
    Throughout the nation, the USA Today report shows that lead 
contamination has had a devastating impact. Far too many 
children have dangerously high levels of lead coursing through 
their veins, poisoned in their own play areas, set back 
intellectually before they even opened a book.
    But I want to be clear. As the report shows, it is obvious 
that we could help fix this problem if the EPA had the 
resources it needs to fully test and clean up those 
contaminated areas. That is why I have introduced the Polluter 
Pays Restoration Act, to force polluting industries to foot the 
bill for cleaning up hazardous sites. We have to do more to 
address the problem of lead contamination. We need more testing 
to find which communities are at risk and where neighborhoods 
are polluted; we have to clean them up quickly as we can 
physically, get on with it.
    So thank you to the witnesses, Dr. Portier and Dr. 
Vandenberg, for being here today, coming to speak about the 
health effects of lead. I hope my colleagues will heed to the 
warnings and take actions for our families and children.
    Once again, Madam Chairman, I thank you for bringing this 
subject to the forefront.
    Senator Boxer. Thanks.
    I want to say, Senator, that you are so right about the 
polluter pays; that is a Superfund bill that you have pending 
in the Finance Committee. Here is the thing that is so 
important about it. Hazardous waste and solvent recovery is the 
No. 1 cause of pollution from lead. So you have addressed the 
No. 1 cause. It is a huge problem. And No. 1.
    So I think that bill is critical, that the polluter pay to 
clean up these hazardous waste sites.
    I ask unanimous consent to enter into the record a letter 
from Senator Sherrod Brown on the health threats of lead and 
the need to address the serious public health problem of that. 
Without objection, we will do that.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. I also ask to enter into the record a 
statement by Senator Jack Reed describing the latest science on 
lead's impact on the health and development of children and the 
need to continue working to eliminate children's exposure to 
lead.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. I was going to turn to our witnesses, but I 
see that Senator Cardin is here. It would be perfect if he 
would give a statement. And for a moment, I am going to hand 
the gavel to Senator Lautenberg, because I have a call I have 
to return. I will be right back.
    Senator, you have 5, 6 minutes.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you very much. I am not going to take 
my time, I will put my statement in the record.
    But let me first thank our witnesses for being here and 
thank the Chairman for conducting this hearing.
    I represent the State of Maryland, and in the State of 
Maryland we have old, established communities where lead paint 
issues have been dominant for a long time, having the impact on 
particularly our children.
    I have been involved in this issue for many years, when I 
was in the State legislature. We have done a lot of things in 
Maryland. We have passed some good laws. Our State has taken 
pretty aggressive action. We have worked very closely with the 
real estate industry, our University of Maryland Law School has 
been actively involved, the University of Maryland Hospital has 
been involved.
    So we put together a pretty effective State program. But we 
need the information from the national partner. That is why I 
think this hearing is particularly important to get the best 
information we have from the witnesses who are here in our 
oversight function, so that we can have effective programs.
    There is no question that lead affects the ability of 
children to develop to their full potential. And the exposures 
are still in our community. It is our responsibility to do 
everything we can to protect our children. I hope this hearing 
will help advance those causes.
    With that, Mr. Chairman, I would yield back the balance of 
my time.
    [The prepared statement of Senator Cardin was not received 
at time of print.]
    Senator Lautenberg [presiding]. Thank you very much, 
Senator Cardin.
    And now, with our thanks, Dr. Vandenberg and Dr. Portier, 
we look forward to hearing your testimony. We can go left to 
right, which always seems to be the case.
    Dr. Portier, thank you. Take 5 minutes, please.

STATEMENT OF CHRISTOPHER J. PORTIER, PH.D., DIRECTOR, NATIONAL 
CENTER FOR ENVIRONMENTAL HEALTH AND AGENCY FOR TOXIC SUBSTANCES 
     AND DISEASE REGISTRY, CENTERS FOR DISEASE CONTROL AND 
                           PREVENTION

    Mr. Portier. Thank you very much, Chairman Boxer, Ranking 
Member Inhofe, Senator Lautenberg, Senator Cardin, and other 
distinguished members of the Committee. Thank you for the 
opportunity to be here today.
    Since 1991 CDC has stated consistently that there is no 
safe blood lead level for children. In recent years, the 
science supporting this statement has strengthened 
substantially. Children are exposed to lead from a variety of 
sources. Some of the more common sources include lead-based 
paint in homes built before 1978, lead contaminated dust and 
soil, in plumbing, and items containing lead such as toys, 
candy, and other products.
    Prevention is important to protect children. Because lead 
exposure often causes no symptoms, elevated blood lead levels 
frequently go unrecognized. Yet lead exposure can affect nearly 
every system in the body.
    At very low levels, research has shown that the blood lead 
levels are associated with reductions in IQ. Children with 
blood levels near 5 micrograms per deciliter have a higher 
prevalence of poor academic achievement, a higher risk of poor 
impulse control, and higher risk of attention deficit disorder. 
Additionally, research suggests that blood lead levels in the 
range of 6 to 10 micrograms per deciliter are associated with 
signs of reduced post-natal growth, delayed puberty in girls, 
and decreased hearing and dental caries.
    Because of this improved science, CDC requested the 
Advisory Committee for Childhood Lead Poisoning Prevention form 
a work group to evaluate CDC's traditional blood lead level of 
concern of 10 micrograms per deciliter. In January 2012 the 
Advisory Committee gave the following recommendations. No. 1, 
CDC should use the childhood blood lead level reference value 
based on the 97.5th percentile of the population blood lead 
level in children ages 1 to 5. This value is currently 5 
micrograms per deciliter. The reference value should be updated 
by CDC every 4 years based on the most recent population-based 
blood lead level surveys among children.
    CDC agrees with these recommendations. Targeting the 
environments of children with the highest blood lead levels 
will prevent further exposure and save lives. The term ``blood 
lead level of concern'' will no longer be used, as it implies 
there is a blood lead level below which there is no concern. 
Instead, CDC will use ``blood lead reference value'' to 
indicate high exposure and a need for intervention to prevent 
additional exposure.
    Currently, CDC estimates that over half a million children 
aged 1 to 5 have blood lead levels greater than 5 micrograms 
per deciliter. African-American children are three times more 
likely to have blood lead levels greater than 5 micrograms per 
deciliter than are white children, a significant disparity 
requiring continued attention.
    CDC's environmental health programs help to save lives, 
protect people from harmful environmental exposures, and save 
money by preventing costly illnesses and disabilities. CDC's 
lead program accomplishes its mission by building strong 
partnerships with Federal, State, and local agencies and other 
organizations and by gathering essential data to inform the 
development of activities that help eliminate and control lead 
exposure.
    CDC has funded State lead poisoning prevention programs 
into September 2012, using appropriated dollars from the fiscal 
year 2011 budget. In fiscal year 2012 CDC will maintain 
critical expertise and analysis at the national level as a 
resource for State and localities as mandated by Congress.
    I will share one family's story. In 2011 a Connecticut 
family said that they were devastated and lost when they found 
that their little girl had elevated blood lead levels. Using 
funding in part from CDC, the State of Connecticut and local 
lead program were able to provide services to the family, hire 
a lead abatement contractor, and oversee a prompt and complete 
abatement project. The grateful parents wrote back and said, 
``Because of all of you, we were able to persevere and make our 
home safe for our children.''
    CDC remains committed to reaching the Healthy People 2020 
goals of eliminating elevated blood lead levels in children. 
CDC continues to work with States and local communities and 
other Federal partners to maximize our nation's efforts to 
control lead sources. Together, we support physicians' and 
parents' access to resources they need to safeguard and promote 
their children's health and development.
    Thank you for the opportunity to present this testimony to 
you today. I would be happy to answer any questions.
    [The prepared statement of Mr. Portier follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
      
    Senator Boxer [presiding]. Dr. Vandenberg.

  STATEMENT OF JOHN VANDENBERG, DIRECTOR, NATIONAL CENTER FOR 
 ENVIRONMENTAL ASSESSMENT, OFFICE OF RESEARCH AND DEVELOPMENT, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Vandenberg. Madam Chairman, Ranking Member Inhofe, and 
distinguished members of the Committee, thank you for the 
opportunity to testify about the latest science on the impact 
of lead on children's development and public health. My name is 
John Vandenberg, I am the Division Director in EPA's National 
Center for Environmental Assessment in the Office of Research 
and Development. My division is responsible for identifying and 
evaluating the world's scientific literature to create the 
integrated science assessment, which I will refer to as the 
ISA.
    The ISA serves as the scientific foundation for decisions 
by the Administrator on retaining or revising the National 
Ambient Air Quality Standards for lead. My testimony today will 
include a brief review of data on the trends of lead in the air 
and in human blood and draft conclusions regarding the health 
effects of exposure to lead that EPA has developed in the most 
recent draft ISA for lead.
    Lead is one of six pollutants for which a National Ambient 
Air Quality Standard has been established under the Clean Air 
Act. Emissions of lead to the air historically resulted from 
the use of lead additives in gasoline. Following the phase-out 
of lead additives for on-road gasoline and tightened industrial 
standards, emissions of lead to ambient air have declined by 
more than two orders of magnitude over the period from 1970 to 
2008.
    Ambient air concentrations of lead have shown a similar 
decline, as have levels of lead in the blood of children and 
adults. In 2008 the air quality standard for lead was 
strengthened. The level of the standard was lowered by 10-fold 
from the 1978 level of 1.5 micrograms per cubic meter to .15 
micrograms per cubic meter. EPA's decision on the standard was 
based on the much expanded health evidence for the effects of 
lead on learning on children. The revised standard was 
established lead-related health effects, including IQ loss in 
children.
    The current review of the air quality criteria for lead as 
required every 5 years under the Clean Air Act was initiated in 
February 2010 with a call for information and subsequent 
development of a draft ISA. The current draft of the ISA was 
released for public comment and for review by the Clean Air 
Scientific Advisory Committee, an independent panel of experts 
in February of this year, and we expect to receive their 
comments soon. Revisions based on the peer review panel and 
public comments will be incorporated into the next draft, and 
we anticipate a final document next spring.
    Over 2,900 scientific studies were included in the draft 
ISA, demonstrating the large body of evidence available on 
issues related to lead emissions, ambient concentrations, 
exposures, biomarkers, and health and environmental effects. In 
the latest draft of the ISA, the EPA conclusions were that 
human exposure to lead involves multiple pathways, including 
hand to mouth contact or inhalation of lead dust, eating paint 
chips, drinking water conveyed through lead pipes, and exposure 
to soil which can act as a reservoir for the positive lead 
emissions.
    The draft ISA organizes, presents and integrates evidence 
that is generally consistent with the previous science 
assessment that we completed in 2006. Based heavily on effects 
on learning and memory in children, the collective body of 
evidence continues to provide support for a causal relationship 
between lead exposures and effects on the nervous system. 
Epidemiologic and toxicological evidence also demonstrate lead 
associated increases in behavioral problems, in particular 
inattention and impulsivity in children. The biological 
plausibility of effects on cognitive function and behavior as 
provided by evidence characterizing underlying mechanisms, 
including lead induced effects on the developing nervous 
system.
    Building on the strong body of evidence reviewed in the 
previous science assessment, recent studies provide evidence of 
an association between long-term lead exposures and 
cardiovascular effects in adults. The largest body of evidence 
is for associations of lead with increased blood pressure and 
hypertension. Other health effects in children are also 
reviewed in the draft ISA. For example, the evidence supports 
an association of blood lead level with delayed onset of 
puberty in both males and females, with asthma and allergy 
related immune effects, and with effects on heme synthesis and 
red blood cell function in children.
    Lead emissions to the air have declined substantially since 
1970, with commensurate declines in the concentration of lead 
in air and in human blood. Collectively, the substantial body 
of evidence reviewed in the draft ISA highlights what we know 
about the relationship between lead exposure and effects on the 
nervous system, cardiovascular system, as well as red blood 
cell function. There is also evidence that lead exposure is 
associated with immune, reproductive, developmental, and renal 
effects. Research suggests that many of these effects of lead, 
including effects on learning and memory, are found in 
populations of young children at very low blood lead levels.
    Thank you for the opportunity to testify today. I am happy 
to answer any questions that you may have at this time.
    [The prepared statement of Mr. Vandenberg follows:]
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
     
    Senator Boxer. Thank you both.
    You both agree now that there is no safe level for lead in 
blood, is that correct?
    Mr. Portier. Correct.
    Mr. Vandenberg. Yes. There is no evidence of a threshold 
for effects of lead.
    Senator Boxer. So there is no safe level, no matter what it 
is? If there is some lead in the blood, it is not a good thing. 
Is that right?
    Mr. Vandenberg. I believe that is correct.
    Senator Boxer. Yes.
    Well, I mean, I think that is huge news for us. I know that 
the science has sort of been leading in that direction since 
the 1990s, but I really appreciate your saying this. And anyone 
who gets up on the Senate floor and tries to repeal laws that 
protect our kids and stop the EPA and the CDC from doing their 
work have to know that is not a benign act. That is making sure 
that our kids are in danger. So we know that there's no safe 
level.
    Now, we also know from what I have learned that you can't 
reverse some of these problems once they have taken place. Is 
that correct, doctors, that you can't really reverse issues 
that emerge from lead exposure? Is that correct?
    Mr. Portier. Some of the issues, some of the health impacts 
from exposure to lead, especially early in life, are not 
reversible, others are.
    Senator Boxer. OK, so tell me what is not reversible.
    Mr. Portier. The changes in IQ appear to travel with you 
throughout life. Some of the changes you see related to 
decreased academic achievement and increased attention related 
issues tend to track with life as well. Then some of the early 
exposures, while they don't show problems associated with 
problem behaviors right away, later in life they do appear to 
show a linkage to problem behaviors.
    Senator Boxer. OK.
    Do you agree with that, Dr. Vandenberg? So just to sum it 
up, once a child has been exposed to lead--and we don't know 
exactly the level, because now we are saying there is no safe 
level--if they suffer a problem with IQ, diminishment, 
decreased academic performance, attention deficit disorder, and 
behavioral problems, those things are not reversible.
    So that leads me, because I am always trying to get ahead 
of a problem, we are behind on this problem, why wouldn't we 
say--and I am not asking you that the Government should say 
this, but I am asking you your opinion as doctors--that every 
child should be tested when they go get a blood test, that they 
ought to run a test on the exposure to lead? Would that be 
something that is smart? I am not asking you if we should write 
a law about it. I am just saying, if I am a grandma or a parent 
and I have a beloved kid, why wouldn't I want to know that 
information?
    Mr. Portier. That is indeed CDC's recommendation. Every 
child of the age 1 or 2, we feel, should be tested for lead in 
their blood at that age range. If the quantities are found that 
are of concern, there is an instrument issue about how long you 
can measure, that that child should be followed, that lead in 
their homes should be looked for, sources should be identified 
and potentially remediated as best as possible.
    Senator Boxer. Well, I have to tell you, that is important 
for every single parent to understand. Because I know someone 
who just had a sense that her son should have been tested. 
Nobody suggested it but she said, please test. And found very 
high level. It turned out it was dishes in the home. Dishes in 
the home.
    And I think, I wonder, do you have any notion about how 
many parents or pediatricians do routinely test for lead in the 
blood?
    Mr. Portier. Yes. I am going to get the number not exactly 
right, but somewhere around 65 percent of children in the 
United States age 1 to 2 are indeed tested for blood lead 
levels.
    Senator Boxer. Sixty percent are tested.
    Mr. Portier. Greater than 50 percent.
    Senator Boxer. I thought you said 60. Fifty?
    Mr. Portier. Sixty-five percent is my recollection of the 
number.
    Senator Boxer. Are being tested?
    Mr. Portier. Are being tested.
    Senator Boxer. Between the ages of 1 and 2?
    Mr. Portier. Under the age of 6, let's say. There is some 
range there.
    Senator Boxer. And is this happening because the doctors 
are getting more in tune with this problem? Or is it happening 
because the parents are demanding it? What is your sense of 
that?
    Mr. Portier. Most of it happens because State health 
departments are pushing for this.
    Senator Boxer. Good.
    Mr. Portier. A lot of it happens because CMS is doing this 
now, routinely, especially in areas where we know there are 
lead exposures of concern.
    Senator Boxer. Let me just say, I know California's 
environmental protection agency is very concerned about this. 
But it seems to me, colleagues, that if a doctor's note and an 
exam is required for school, this is something the States 
should take up, that they ought to routinely test for lead. Is 
that an expensive test, Doctors? Is that an expensive test to 
test? If you are running a test, to test for lead in the blood?
    Mr. Vandenberg. I don't know.
    Mr. Portier. I honestly don't know.
    Senator Boxer. Any of my staff know?
    All right. If you don't mind getting back to us on that, I 
think it is very important.
    I will withhold my other questions and turn to Senator 
Lautenberg.
    Senator Lautenberg. Thank you both for the information you 
bring here. But it strikes me, and I listened to the Chairman's 
questioning, it strikes me that this menace has existed for so 
many years now, and the result of the impairing a child's 
ability to learn, to study, is part of a national catastrophe. 
It is a terrible thing when you think about it. The old adage, 
out of sight, out of mind, is really unfortunately a play on 
words, a nuance that is not pleasant to hear.
    Now, USA Today really sounded the alarm. They found that 
more than 230 lead smelter sites had previously been 
unidentified. And I had mentioned the one in Carteret, New 
Jersey. Soil testing in a community near the Carteret smelter 
showed levels more than double that.
    Dr. Portier, you suggested even lower levels of lead 
exposure are dangerous. Unfortunately, these are lasting 
effects. This isn't like something you can treat medically and 
say, OK, that is the end of that.
    So soil testing, again, more than double what EPA considers 
hazardous for children. How quickly--and this should be 
addressed to Dr. Vandenberg--how quickly can EPA put an end to 
the poisoning that has been happening in a particular 
neighborhood?
    Mr. Vandenberg. Thank you for your question, Senator 
Lautenberg. I can say that EPA is aware of these issues and our 
discussions are ongoing. I think it is very important to 
recognize that EPA takes the issues very seriously. Public 
health concerns are very much part of our mission. So we are 
taking this seriously, and we are under discussions to try to 
develop programs to address these concerns.
    Senator Lautenberg. CDC and EPA play important roles in 
protecting the public's right to know about environmental 
toxins. Yet it took an investigative report to make the alarm 
loud enough on contamination near former lead smelters. What 
would you say the principal actions your agencies are taking to 
identify other contaminated sites and to spread the word to 
local residents about what they can do, what they ought to get 
going on to protect their children from this terrible 
contamination?
    Mr. Vandenberg. Senator, EPA and CDC are currently 
coordinating and collaborating significantly on these issues. 
We are meeting, we are discussing, and we are developing plans. 
This is related to our missions. So EPA's mission is one of 
protecting public health and the environment. And again, CDC 
and EPA are coordinating this.
    One of EPA's key public health priorities is to protect 
public health. We are continuing to strengthen our 
relationships with State and local agencies as well, which is a 
key aspect of how lead in communities can be addressed. So 
thank you for your question.
    Senator Lautenberg. Dr. Portier.
    Mr. Portier. In addition to working with EPA on this issue, 
we are also working with a number of other partners. We still 
continue to work with the State, although our funding to the 
States will end at the end of this fiscal year. We continue to 
work with them and strive to make sure that they keep whatever 
they can of the lead poisoning prevention programs that we have 
put in place into the next fiscal year, so that we can continue 
to provide maps across the United States of where we see blood 
lead levels greater than 5 micrograms per deciliter, and look 
for areas where we can focus our efforts.
    In addition, the Agency for Toxic Substances and Disease 
Registry, ATSDR, supports Pediatric Environmental Health 
Specialty Units (PEHSUs), 10 of them around the United States, 
who provide expertise for pediatricians who are faced with a 
case of an environmental exposure in a child and don't know 
what to do. They routinely contact our PEHSUs. These PEHSUs, 
the pediatric specialty units, also provide medical education 
throughout the nation on environmental health issues. And they 
will be following up on our change to lead standards and try to 
incorporate that into some of the work they do.
    We have a number of other partners, non-governmental 
organizations, that help us a great deal in getting the word 
out on lead.
    And if I might take 1 second to correct a statement I made 
earlier to Chairman Boxer, it is 60 percent to 65 percent of 
children on Medicaid are tested for lead. I do not know the 
national number. I would have to get back to you on that.
    Senator Lautenberg. Just one last thing, Madam Chairman, if 
I might. An observation about, here we stand. This, I will call 
it a fire, is smoldering. We stopped the collection of revenues 
in 1995, such a long time ago, and here we do know that there 
is smoke and danger coming out of these places. And it took 
this kind of an exciting piece of news coming in, the press, to 
get us activated, as we are now. And I thank each of you and 
the agencies that we represent. We just have to give them more 
firepower.
    Thank you very much.
    Senator Boxer. Thank you, Senator.
    Senator Cardin, followed by Senators Udall and Whitehouse.
    Senator Cardin. Thank you, Madam Chairman, again, I thank 
our witnesses for being here.
    I share the concern of Chairman Boxer and Senator 
Lautenberg as to the urgency of this issue. We have been 
talking about it for a long time, and it is somewhat disturbing 
that we still don't quite have a handle on a national policy to 
deal with ending lead poisoning in our children.
    I am particularly concerned about the fact, Dr. Portier, in 
your statement, that African-American children are three times 
more at risk than the general population. I think it reflects 
the fact that this is not a problem that has been identified in 
one discipline. It is not just a health or environmental issue, 
it is a housing problem, it is a social problem, it is an 
educational problem, it is really a combination of a lot of 
different factors that go into trying to have an effective 
strategy to deal with it.
    Is lead-based paint, or houses painted before--I think 1978 
was the cutoff year--is that still the largest source of the 
problem today?
    Mr. Portier. For children who are below the age of 6 and 
have higher blood lead levels, greater than 5 micrograms per 
deciliter, predominantly, the No. 1 source of exposure is lead 
paint.
    Senator Cardin. And I know that there are different 
strategies on remedial actions for homes that do have lead-
based paint. Obviously the flaking of the paint, the window 
sills are the greatest dangers to children, who tend to put 
their mouths on the window sills. Is that still the strategy, 
is to do remedial work in the most vulnerable areas, either 
flaking paint or where children can get direct sources, rather 
than trying to remove all the lead-based paint?
    Mr. Portier. We have an excellent partner in HUD looking at 
this issue. Where possible, we work very closely with HUD to 
actually remediate and remove the lead paint in the first 
place, when possible. When those don't happen, then there are a 
number of things that we tell parents that they can do to help 
reduce the threat to their children. Obviously remove the 
flakes, make sure you sweep constantly, you remove it from the 
floor. Better yet, use a HEPA filter. Keep your shoes outside, 
if at all possible, if you are bringing it in from outside the 
yard.
    Get your child tested, get the paint on your walls--if you 
have a pre-1978 home and you do not know--then get the paint 
tested. Some of the environmental programs in States around the 
nation will actually do that for you. So there are a number of 
things we have available on our Web site that are things to 
help a parent.
    In addition, many of the State programs will make 
recommendations for lead abatement as to where the parents 
might find competent help to come in and remove the lead in 
their homes.
    Senator Cardin. As I said, there are a lot of different 
aspects to the problem. There are a lot of families that think 
they are safe, and they are not safe. Do we have good 
information as to how effective that type of remedial action 
that doesn't completely remove the lead-based paint but uses 
the more pragmatic approach to deal with the sweeping and the 
flaking issue, rather than the complete removal, how effective 
that is? Do we have any studies that have been done in that 
regard?
    Mr. Portier. There are studies that have been done on that. 
I would like to get back to you with a more detailed answer to 
your question, so I can compare effectively for you abatement 
versus prevention of exposure.
    Senator Cardin. I wish you would, because, Madam Chairman, 
we have been talking about these issues now for the last, 
actively, for the last 30 years. We still have a huge problem 
that is out there. I think most people figured we would just 
wait until the houses sort of fell down and we didn't have the 
problem anymore. Obviously, children are still at great risk.
    I know that there is an economic issue on the remedial 
programs. I understand that. I understand the tradeoffs. I have 
talked to a lot of property owners, and I know that there are 
issues that have to be addressed here. But we have to get our 
children safe. We have been talking about this for a long time. 
I would hope we could come up with a more consistent national 
strategy for what is expected of parents today to make sure 
their children are living in a safe environment and then having 
the governmental programs and oversight to make sure that those 
options are available to parents today, based upon their 
economic needs and based upon the liability issues.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much.
    Senator Whitehouse.
    Senator Whitehouse. Thank you very much.
    Let me first thank my colleague, Senator Udall from New 
Mexico. I am a little pressed for time, and he has let me skip 
ahead of him in order, which is a generous courtesy, but one 
very consistent with the way he treats his colleagues. Thank 
you, Senator Udall.
    As the safe level for lead paint in children's blood 
declines now to zero, it means that there are more kids that 
require attention for having dangerous lead exposure levels. At 
the same time, this will create increased demand for all the 
various abatement and treatment programs that are out there. We 
are looking at cutting funding to CDC's lead prevention 
programs.
    Have you done any analysis as to how much of an increase in 
the prevention budget might be necessary, basically to stay 
even from a public health perspective, now that we know that 
the risk is great down to very, very small levels of lead in 
the blood? If you don't add money at this point, then clearly 
you are going to leave some lead poisoned kids off the table. 
Because there are going to be a lot more of them, you have to 
reach out to that. Presumably the numbers should be going up.
    What is the process that is taking place within the 
Administration for identifying what the correct number is to 
stay at the existing public health level, given this new data?
    Mr. Portier. Senator Whitehouse, that is a question we are 
indeed exploring very carefully right now and looking into. 
There are a number of aspects associated with lead poisoning 
prevention: surveillance, training, screening, and then patient 
follow up, patient care, and intervention. We are looking at 
all of those, again, with our partners at EPA and HUD 
predominantly, to think about how we move forward, given our 
joint resources, to do this effectively.
    Senator Whitehouse. I think the program is called Healthy 
Homes that has come to Rhode Island. I was with them in the 
Olneyville neighborhood of Providence a while ago, and they try 
to make sure that when they go into say, improve energy 
efficiency in homes, they are also looking at lead and mold, 
other issues, so that you kind of--it is efficient to do it at 
once rather than go back first to re-do the windows for lead, 
then to re-do the same windows for energy efficiency and so 
forth. So I would commend you to think about that program.
    I will take the last of my time to make a comment, which 
is, this is an issue that I have been fighting for a long time, 
I was the attorney general who sued the lead paint industry for 
the damage that they were doing to Rhode Island children, and 
literally thousands being poisoned. Through the course of it, I 
have paid a lot of attention to this issue. One of the things 
that has stood out has been the amount of phony science 
generated by the industry with the desire and purpose to 
dissemble, to delay, to deny, to mislead.
    It is significant that we are here at this hearing finding 
out that there is in fact no safe level of lead in blood for 
children. But it does recall the many, many, many years 
chronicled in books like Denial and Deceit and Merchants of 
Doubt that industry scientists have been basically doing their 
best to mislead the American public about this danger and 
others. A lot of the same people, a lot of the same 
organizations were behind trying to convince people that they 
shouldn't have to worry about health effects of cigarettes. A 
lot of the same organizations and the same scientists are 
behind trying to convince people they don't have to worry about 
the effects of climate change and carbon pollution.
    And it is worth pointing out that once again, the industry 
funded phony science has now been completely debunked. But in 
the generation that it took to get there, there have been 
innumerable children who were poisoned. And the drag and the 
delay that the industry caused by not kind of participating in 
a helpful way in these issues and instead, just trying to deny 
and delay and continue to sell their product and avoid 
liability as long as possible has had some really unfortunate 
consequences.
    But it is a recurring theme that is worth noting. When you 
get into these public health issues, whether it is carbon 
pollution or lead pollution or tobacco, health consequences 
that virtually every time you see many of the same people, 
always the same strategies of phony science thrown up to deny, 
delay, to create just that aliquot of doubt that will enable 
the political arm to prevent thing from happening. There is a 
correlation between the scientist trying to create that level 
of doubt--however phony it may be--so that that empowers the 
political delay apparatus to prevent things from being done to 
protect, in this case, the health of tiny children. It is a 
regrettable fact of American life right now that this is a 
recurring phenomenon. But it is kind of a noteworthy moment to 
call it out, now that we have officially decided that there is 
no safe level of lead in the blood of children.
    I thank the Chairman very much for holding this hearing. I 
think it is important. I think it is unfortunate that we don't 
seem to have any participation from the Republican side, 
because it is everybody's children who are at risk from lead 
poisoning.
    Senator Boxer. May I take this opportunity, as my friend 
leaves for another meeting, to say this, you are a leader. You 
are proven leader. President Obama also has worked very hard to 
get lead away from kids.
    And here is your point that there is a disinformation 
campaign. The really tragic consequences of that is that we 
have learned today unequivocally that the worst of the impacts 
of exposure cannot be reversed. So all of these lies that have 
been coming out of industry that this is not a problem have had 
terrible impact on so many. At some point we will quantify just 
how many.
    But I want to thank you for coming today, and also your 
colleague put a very good statement in the record, Senator, 
your colleague, Senator Reed.
    I would like to call on Senator Udall.
    Senator Udall. Thank you, Chairman Boxer. And thank you for 
focusing in on this. I think this is a tremendously important 
issue.
    I want to follow up a little bit with what she just talked 
about, the no way to reverse it, and maybe just ask the 
question in a little different way.
    If we know that a child--you do this blood test, you find 
that a child has elevated blood levels, is here anything that 
can be done at that point to try to purge the body of the lead 
that is in it? Is there research going on in that area? Is this 
something that has been looked into?
    Mr. Portier. Clinical intervention, there are clinical 
interventions for lead poisoning. But those clinical 
interventions carry risks as well. So they are only used in the 
situation where the child's life is truly at stake.
    Senator Udall. What are we talking about, Doctor?
    Mr. Portier. Above 45 micrograms per deciliter is the 
recommended level at which you begin chelation therapy in 
children. I am pretty sure there is additional research on this 
area. But I will have to check for you to answer that question 
at lower levels.
    If the source of the lead is the child's home, and it is 
the paint in the home, removing the paint stops that exposure. 
And the child's blood lead level then naturally goes down with 
time. And that is the benefit to the child, because they are no 
longer increasing their blood lead level. So it is sort of like 
a vaccination at that point for the lead in the child's body, 
and that is the best solution. Prevent the exposure in the 
first place. Barring that, stop the exposure when you find it.
    Senator Udall. But I would assume the sooner you get it out 
of the body, the better off you are.
    Dr. Vandenberg, did you want to comment on that?
    Mr. Vandenberg. No, I would agree. I think that the key is 
to avoid exposure in the first place, and then as a child 
grows, the blood levels actually come down. But stopping the 
exposure is clearly the key factor there.
    Senator Udall. The chelation therapy you are talking about, 
you are giving them a chemical or something that helps the body 
purge it? Is that what you are suggesting?
    Mr. Portier. Exactly. That is indeed what it is.
    Senator Udall. What do you give to do that?
    Mr. Portier. I used to know. I can get that.
    Senator Udall. We will put it in for the record, please. 
Let's assume that you are doing that.
    You are saying the research shows that only at this highest 
level do you do that. But is the research being done when we 
find a child with all different levels, if this chelation 
therapy might not work? And if you don't know, we can get that 
information in the record. I am just interested in, we have 
these situations, you find a child with a high level, and if 
there is anything we can do to bring that level down so that we 
get ourselves in a better situation for the child and for the 
family.
    Mr. Portier. I will get back to you on the answer to that 
question.
    [The information was not received at time of print.]
    Senator Udall. OK, thank you very much.
    Dr. Vandenberg, in your testimony you said in 2008 the EPA 
lowered the level of the standard, the level of the standard 
10-fold from 1978. So the 30-year period, 1978 to 2008, was 
there no conclusive evidence to lower the standard sooner? How 
did the evidence accumulate over time, over the 30-year period?
    Mr. Vandenberg. Thank you for your question. There were 
other evaluations that occurred during that interim period. And 
part of that work led to continued work with CDC and others to 
look at the implementation of the lead removal from paint, for 
example. So there was an advancement of science, but there was 
not a decision to change the standard until 2008. And as you 
know, at that time the standard was changed by an order of 
magnitude, very substantially.
    That is the standard that is in the ambient air. And it was 
based on an evaluation of learning in children, i.e. 
detriments, trying to avoid, from our science advisors, a 
certain amount of IQ detriment. So it was based on a 
significant body of science, a very substantial and important 
review by our scientific advisory committee, and then the 
Administrator's decision led to that change by an order of 
magnitude in 2008.
    Senator Udall. Yes. Now, Dr. Vandenberg, you mentioned the 
pathways for this coming into the body in your testimony. You 
talk about hand to mouth contact, inhalation of lead dust, 
eating peeling paint chips, drinking water conveyed through 
lead pipes and exposure to soil, which can act as a reservoir 
for deposited lead emissions.
    Is there one that is more prevalent in terms of getting the 
lead into the body, or does it depend on the situation at the 
particular household? And then what is the question to the CDC, 
what do you do in your prevention campaigns in order to let 
people know, based on these pathways, what they should be doing 
looking for, anyway?
    Mr. Vandenberg. Thank you, Senator. To the first part of 
your question, for homes that have lead-based paint in them, it 
clearly is the ingestion of lead dust, either paint chips or 
dust that is in the home site that is the major source of the 
exposure to the children in such homes. In other communities, 
it may be different. It is a bit site specific, depending in 
the location and the community and the household setting. But 
generally if there is lead paint in the home, that typically is 
the dominant source of lead exposure.
    Senator Udall. And obviously the question, a follow up 
question to the CDC, what do you do in terms of the prevention 
side of this to let families know what they should be looking 
for in terms of lead-based paint and those kinds of situations?
    Mr. Portier. Again, we have lots of recommendations along 
these lines with our partners at EPA and HUD. On pre-1978 
housing, we strongly encourage homeowners to check their paint 
for lead. There are tests that can be done. They are not, from 
my understanding, very expensive. And that at least tells you 
whether you have a problem to start with.
    And then we have guidance for how to, if you are going to 
leave the paint there, what you should be doing to minimize the 
exposure.
    Senator Udall. When you say pre-1978 housing, does the CDC 
or anyone else go in, try to go into housing and actually put 
flyers out or something and say, you are living in pre-1978 
housing, you should get a test, this if the way to do it, if 
you need additional information, call us?
    Mr. Portier. In select communities where we believe there 
was a high--where we believe there was a high threat based upon 
observing many children with high blood lead levels, we have 
gone door to door and notified people that they might want to 
get their child tested for high blood lead levels. We have come 
in with our partners and the State and done some of those 
tests.
    Senator Udall. Thank you very much, and thank you for your 
dedication to the safety of our children. I really appreciate 
your work, both at the CDC and the EPA. Thank you.
    Senator Boxer. Thank you very much, Senator.
    I would ask unanimous consent to place in the record 
studies that examine lead's impacts on human behavior. One of 
them is Understanding International Crime Trends: the Legacy of 
Pre-School Lead Exposure. The other is Early Exposure to Lead 
in Juvenile Delinquency. The other is Lifetime Low Level 
Exposure to Environmental Lead in Children's Emotional and 
Behavioral Development, Ages 11 to 13. And the last one here is 
Early Exposure to Lead in Neuropsychological Outcomes in 
Adolescents. These are all authored by prominent scientists and 
physicians.
    And then I ask unanimous consent to enter into the record a 
letter sent to myself and Senator Inhofe from the American 
Academy of Pediatrics, stating there is no safe level of lead, 
saying that we need support for funding for lead prevention 
programs. I think this is a very important letter.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. I have to say, the press is always here when 
we are having a battle royale. Not too many press are here. But 
if the press wants to do a good job, if they want to go back to 
the days when we had journalism that really helped people, they 
ought to let everybody know that there is no safe level of 
lead, and that to play it safe, have your kid tested.
    Because we learned something today very clearly. It is not 
complicated. It is not even debatable. And what we learned is, 
A, there is no safe level of lead, and that the impacts fall 
hardest on our children, and that not near enough kids are 
being tested for this. There are still 40 percent of Medicaid 
kids who aren't being tested, and we don't even know today, but 
we are going to find out the rest of the population.
    And we also know that most of the horrible impacts cannot 
be reversed. And the only solution is to stop the exposure if 
you can. If it is in the home, you have a better chance at it. 
If it is in the toys, if it is in the dishes, if it is in the 
paint, there is a chance. But we don't know. Because I have the 
list, we have the list of where the most lead is. The first one 
is hazardous waste solvent recovery, primary metals, coal 
mining, stone clay in glass, fabricated metals, chemicals. It 
goes on and on. Computers, electronic products, paper, plastic 
and rubber. And a lot of this is going into the air, is that 
right, Dr. Vandenberg?
    Mr. Vandenberg. Some of that certainly is.
    Senator Boxer. And a lot of it could be in the soil, is 
that right, Dr. Portier? Dr. Vandenberg, both?
    Mr. Portier. Yes.
    Mr. Vandenberg. Yes.
    Senator Boxer. So you agree with that. So the air, the 
soil, what about the water?
    Mr. Portier. To some degree, but a lesser extent.
    Senator Boxer. Do you agree with that?
    And in these products, so here is the situation. People 
don't know this. And we all talk about why are we having a 
problem with attention deficit disorder. Maybe the answer is in 
front of our face. And at the same time, we look at the House, 
and they are cutting the EPA budget to the bone, with talk 
about how the EPA is a terrible agency. They have a war against 
the Environmental Protection Agency. Seventy-five of the people 
disagree with them, but that doesn't stop them.
    And so I want to thank you, from the bottom of my heart. 
Because I have learned a tremendous amount today. I am proud of 
the work that is being done in California. But I have to tell 
you, this is a national problem. And we do have a President who 
really took a big lead when he was on this Committee on this 
issue.
    So let's let the word go out from here, not from elected 
officials, but from the doctors that there is no safe level of 
lead, that there are terrible problems associated with any 
level of exposure, that those problems are very hard to 
reverse, and we need to prevent this problem in the first 
place. And the best way to do that is to test your child for 
exposure to lead, see if there is anything in the home that is 
leading to this problem, and for the rest of us, we have to 
work outside the home to make sure that we clean up hazardous 
waste sites, Superfund sites, and get rid of this stuff.
    I guess I have one question. If an adult is exposed, you 
touched on it briefly, but I want to go back to that. And let's 
say they didn't have exposure as a kid but if an adult now is 
exposed, what are the problems? Either of you can answer or 
both of you can answer.
    Mr. Vandenberg. There is evidence that increased lead is 
associated with changes in blood pressure and hypertension in 
adults.
    Senator Boxer. Anything else, Dr. Portier?
    Mr. Portier. There is some indication of an increase in 
essential tremors in adults as well. And in adult men, adverse 
changes in sperm parameters and increased time to pregnancy.
    Senator Boxer. What about time to pregnancy?
    Mr. Portier. Increased time to pregnancy in adult men. And 
then in adult women, reduced fetal growth.
    Senator Boxer. OK, so what we have now is additional 
information that for adults, there are serious problems, that 
include high blood pressure, tremors, problems with 
reproductive health. Now, USA Today--when did this run? In May, 
ran a story that said that old closed factories that emitted 
lead that have not been adequately tested, located all over the 
United States, could be a source of exposure. So these are the 
kinds of things we need to deal with.
    But right now, I say take it one step at a time. Test those 
children and adults should be tested as well. We have an 
epidemic of high blood pressure. It is millions of people, is 
it not, Dr. Portier, that have high blood pressure? And if it 
is something that they are exposed to in the home as well, this 
could change things. Am I right, Dr. Vandenberg? If you reduce 
the exposure?
    Mr. Vandenberg. Again, the increase in lead is associated 
with higher blood pressure, hypertension, as well as renal 
effects that I might mention as well.
    Senator Boxer. Renal effects. Can that be reversed if the 
source is done away with? Or is that going to be with you the 
rest of your life?
    Mr. Vandenberg. There are a lot of factors that influence 
those outcomes. So it could be affected by other factors, such 
as nutrition.
    Senator Boxer. No, I wasn't asking that. If you took away, 
if it was caused by the lead exposure and you took away that 
exposure, it was something in the home for an adult, would that 
have a good impact or not necessarily on the blood?
    Mr. Vandenberg. I can't really say; I am not sure.
    Senator Boxer. All right. Lead is bad. And we need to do 
everything in our power to protect people in this country from 
it. And let the word go out to those who would print lies and 
disinformation that this Committee is going to stand very tall 
on this one, and we are not going to allow that disinformation 
to influence the people of this country who are very smart, and 
they believe the doctors. And we are going to make sure of 
that.
    I want to thank both of you. You are doing a great job. 
Your testimony was clear, unequivocal and it means a lot to 
those of us on this Committee.
    We stand adjourned. Thank you.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I understand that we are having a hearing today about one 
of the things that I think all Members of Congress agree on: 
lead exposure in children is harmful. I appreciate the 
opportunity to hear from both the CDC and EPA about their 
ongoing scientific understanding of how lead impacts human 
health.
    Before we get started, I hope we take a minute to discuss 
the very important public health success story we have 
regarding reducing lead exposure in children. Since 1976 
average blood lead levels in children have been reduced nearly 
10-fold, from 15 micrograms per deciliter in 1976 to 1.5 
micrograms per deciliter in 2008. The number of children tested 
each year has increased while the blood lead level of those 
tested continues to decrease. In most States, CDC's old blood 
lead level of concern of 10 micrograms per deciliter or greater 
is found in less than 1 percent of children tested. We have 
accomplished this by focusing on those sources of lead exposure 
that had a significant impact on blood lead levels. The United 
States has some of the lowest lead paint limits and limits on 
the lead content of toys in the entire world. We have minimized 
or eliminated hazardous amounts of lead in consumer products, 
gasoline, and the environment, resulting in a dramatic decrease 
in blood lead levels across the entire nation.
    We here in Congress continue to take steps toward further 
reducing lead exposure. Last Congress, Senator Boxer and I were 
successful in updating the definition of ``lead free'' in the 
Safe Drinking Water Act--through the Reduction of Lead in 
Drinking Water Act--which tightened the legal definition of 
``lead free'' for pipes and fixtures from 8 percent to 0.25 
percent lead in the whetted surfaces of pipes. Additionally, as 
part of the FAA Modernization and Reform Act this year, we 
authorized the FAA Administrator to continue the important work 
on research and development for a safe transition to unleaded 
aircraft fuel.
    As we continue to take additional steps toward further 
reducing childhood lead exposure, I would encourage my 
colleagues to focus on ensuring that we are proposing 
achievable, common sense responses to the problem that will 
provide actual health benefits to children. Our approach toward 
reducing toxicologically significant blood lead levels must be 
based on a scientific approach and not precautionary paranoia. 
And we need robust oversight to ensure that the programs we 
have in place are effective.
    I am disappointed that we as a Committee are missing a real 
opportunity to get feedback on EPA's current regulatory efforts 
to reduce childhood lead exposure. I am pleased that Dr. 
Vandenberg is here to discuss EPA's NAAQS revisions on lead, 
and I'm sure he would agree with me that a major success of the 
Clean Air Act and EPA's regulatory efforts is the removal of 
lead from motor vehicle gasoline. This has had a dramatic 
effect of lowering levels of lead in the air. They decreased by 
94 percent between 1980 and 1999. Unfortunately, it does not 
appear we have anyone present who can update us on the 
implementation of the Reduction of Lead in Drinking Water Act, 
either from the regulator or regulated community, or to update 
us about other EPA programs.
    I am very concerned that EPA's current efforts to further 
reduce lead exposures are not achieving their full potential. 
EPA's Lead Renovation, Repair and Painting rule's 
implementation has been inconsistent and confusing, and I am 
very concerned that the benefits of this rule are not being 
fully realized. When we have exercised oversight, positive 
changes have been made. Last Congress, the Senate 
overwhelmingly approved the Collins amendment to H.R. 4899, 
which resulted in EPA extending the compliance deadline for 
taking lead safe training courses. Since then, there have 
continued to be issues with the program's execution and poor 
enforcement that I believe require additional oversight in 
order to ensure that the program actually achieves its health 
goals: protecting children from lead dust exposure. Madam 
Chairman, I would remind you that last year the Republicans on 
this Committee requested an oversight hearing on this rule, and 
we have yet to have one. I know there are still many concerns 
and confusion from the regulated community and the public 
health community about how EPA is enforcing and educating the 
public, and I hope that we can address them at a future 
hearing.
    Each year we get closer to reducing the blood lead levels 
of the population of this nation to that of the background 
exposure level of the ambient environment. I hope that as we 
move forward from this hearing toward developing policies that 
help further address lead exposure, we focus on science-based, 
common sense approaches that will provide achievable and 
meaningful health benefits.

                                 [all]
</pre></body></html>
